CERTIFICATE OF SERVICE
I, Eric R. Olson, counsel for Applicant and a member of the bar of this court, certify
I have served the APPLICATION FOR AN EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI by United States mail and electronic
mail, this 19th day of August, 2019, addressed as follows:
Daniel T. Goodwin
M. Paige Orgel
Law Offices of Daniel T. Goodwin
10901 W. 120th Avenue, Suite 350
Broomfield, CO 80021

Counsel for Respondent Dami Hospitality, LLC
/s/ Eric R. Olson

